Press Release  Office of the Inspector General | Smithsonian
Skip navigation
Explore
About Us
Mission & Vision
Our History
Encyclopedia Smithsonian
Art & Design
History & Culture
Science & Technology
Visit
Overview
Hours
Maps & Directions
Floor Plans
Dining
Visiting with Kids
Visiting with Groups
Get Involved
Overview
Volunteer
Giving
Membership
Docents
Citizen Science
Host an Event
Connect
Overview
Blogs
Facebook
Flickr
Google+
Instagram
Mobile
Pinterest
Podcasts
Tumblr
Twitter
YouTube
Virtual World
Educators
Kids
Researchers
Volunteers
Members
Fellows/Interns
Home
Museums and Zoo
Research Centers
Cultural Centers
Exhibitions
Events
Collections
Newsroom
Home » Office
of the Inspector General
PMI Parking Lot Attendant Pleads Guilty to Stealing at Least $400,000 in Parking Fees from Smithsonian Museum
U.S. Attorney’s Office
September 28, 2012
Eastern District of Virginia
(703) 299-3700
ALEXANDRIA, Va. – Meseret Terefe, 36, of Silver Spring, Md., pled guilty today to stealing at least $400,000 of visitor parking fees belonging to the Smithsonian Institution’s Steven F. Udvar-Hazy Center in Chantilly, Va.
Neil H. MacBride, United States Attorney for the Eastern District of Virginia; Scott S. Dahl, Inspector General for the Smithsonian Institution; and James W. McJunkin, Assistant Director in Charge of the FBI’s Washington Field Office, made the announcement after the plea was accepted by United States District Judge T. S. Ellis III.
“Mr. Terefe admitted today to stealing hundreds of thousands of dollars from one of America’s most revered institutions,” said U.S. Attorney Neil H. MacBride. “Especially during a time of challenging budgets, this fraud is extremely troubling.”
Terefe was arrested on Aug. 4, 2012, and pled guilty today to theft of public money. He faces a maximum penalty of 10 years in prison when he is sentenced on Dec. 14, 2012.
In a statement of facts filed with his plea agreement, Terefe admitted that from March 2009 and continuing through July 2012, he was an employee of Parking Management, Inc. (PMI) and worked as a booth attendant at the National Air and Space Museum’s Steven F. Udvar-Hazy Center parking lot.  The Udvar-Hazy Center is the annex location of the Air & Space Museum and is home to the Space Shuttle Discovery and other historic aircraft.   These two Smithsonian sites display the largest collection of aircraft and spacecraft in the world.  PMI began managing the Center’s parking lot, which holds approximately 2,000 vehicles, in March 2009.
Terefe admitted that he began stealing parking fees in late 2009 by either repeatedly unplugging the electronic vehicle counters installed in the parking booths or by not handing customers a serialized parking ticket to display in the car windshield after they paid their entrance fee. These tactics allowed Terefe to underreport the true number of vehicles entering the facility. He and other booth attendants discussed tactics for stealing parking revenues, and Terefe stated that one of his managers approached him and demanded that Terefe pay him half of the stolen proceeds in order to continue his criminal activity.
The statement of facts states that Terefe stole between $1,800 and nearly $4,500 during a daily shift working at the Smithsonian, and the three-year loss to the Smithsonian attributable to Terefe is at least $400,000.  Terefe stored a portion of the cash proceeds at his residence in Silver Spring and used some of the proceeds to purchase an interest in commercial property in Ethiopia.
The investigation was initiated by the Smithsonian Office of the Inspector General and jointly investigated by the FBI’s Washington Field Office.  Assistant United States Attorney Jasmine Yoon and Special Assistant United States Attorney James McDonald are prosecuting the case on behalf of the United States.
A copy of this press release may be found on the website of the United States Attorney’s Office for the Eastern District of Virginia at http://www.justice.gov/usao/vae/news/2012/09/20120928terefenr.html
Mobile Site |
Contact Us |
FAQs |
About Us |
E-News |
Employment |
Site Map
Privacy |
Terms of Use |
Administration |
Governance |
Policies & Reports |
Accessibility
Records Requests |
Inspector General |
General Counsel |
Supplier Diversity and EEO
Page Last Modified: 10/2/2012